       OFFICE OF JUSTICE PROGRAMS
   BUREAU OF JUSTICE ASSISTANCE GRANT
               AWARDED TO
THE TEXAS DEPARTMENT OF CRIMINAL JUSTICE
            HUNTSVILLE, TEXAS




        U.S. Department of Justice
      Office of the Inspector General
               Audit Division


      Audit Report No. GR-80-10-001
              November 2009
            OFFICE OF JUSTICE PROGRAMS
  BUREAU OF JUSTICE ASSISTANCE GRANT AWARDED TO
     THE TEXAS DEPARTMENT OF CRIMINAL JUSTICE
                 HUNTSVILLE, TEXAS

                        EXECUTIVE SUMMARY


      The Office of the Inspector General, Audit Division, has completed an
audit of the Serious and Violent Offender Reentry Initiative Program
(SVORI), Grant No. 2002-RE-CX-0064, in the amount of $2,124,599
(including two supplements) awarded by the Office of Justice Programs
(OJP), the Bureau of Justice Assistance (BJA), to the Texas Department of
Criminal Justice (TDCJ). The purpose of the award was to provide funding to
state and local units of government to develop and implement institutional
and community corrections-based offender reentry programs through
collaborative partnerships with government, social service, faith-based, and
community organizations, in order to reduce recidivism, increase public
safety, and successfully reintegrate serious and violent offenders back into
the community.

      For more than 20 years, OJP has provided federal leadership in
developing the nation's capacity to prevent and control crime, improve the
criminal and juvenile justice systems, increase knowledge about crime and
related issues, and assist crime victims. As a component of OJP, BJA
provides leadership and assistance to local criminal justice programs that
improve and reinforce the nation’s criminal justice system. The BJA's goals
are to: (1) reduce and prevent crime, violence, and drug abuse and
(2) improve the way in which the criminal justice system functions.

       To this end, the SVORI program was developed through a federal
partnership between the Departments of Justice, Labor, Health and Human
Service, Education, Housing and Urban Development, Commerce, Veterans
Affairs, and Agriculture. The goal of this partnership was to help state and
local agencies navigate the complex field of existing state formula and block
grants and to assist states in accessing, redeploying, and leveraging the
necessary resources to support the components of a comprehensive reentry
program.

       As of 2002, the TDCJ oversaw one of the largest prison systems in the
United States and served over 600,000 offenders. The Correctional
Institutions Division had over 126,000 individuals incarcerated and over
80,000 paroled offenders under supervision. The Rehabilitation and
Programs Division oversaw the programming for all offenders. More than
9,000 offenders were housed in Administrative Segregation. 1 The Parole
Division operated over 68 District Parole Offices providing supervision to
over 254 Texas counties. Parole supervision is divided into five regions
serving East, West, North, Central, and South Texas. Since 1994, the Parole
Division has operated eight District Resource Centers that provide services
for General Educational Development (GED), cognitive skills, substance
abuse, and self-, faith-, and family-based programming to assist offenders
towards successful reintegration.

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment; (2) drawdowns;
(3) grant expenditures; including personnel; (4) budget management and
control; (5) financial status and categorical assistance progress reports;
(6) grant requirements; (7) program performance and accomplishments;
(8) accountable property; and (9) monitoring of contractors. We determined
that matching, indirect costs, program income, and monitoring of
subgrantees, were not applicable to this grant. As shown in Table 1, the
TDCJ was awarded a total of $2,124,599 under the grant.

TABLE 1. SERIOUS AND VIOLENT OFFENDER REENTRY PROGRAM
         GRANT AWARDED TO THE TDCJ
           AWARD            AWARD         PROJECT          PROJECT              AWARD
        NUMBER               DATE        START DATE       END DATE 2            AMOUNT
  2002-RE-CX-0064         7/22/2002       7/1/2002        6/30/2005           $1,963,107
    Supplement 01         9/26/2003       7/1/2002        6/30/2005             $144,492
    Supplement 02         9/20/2004       7/1/2002        6/30/2006               $17,000
                                 Total                                       $2,124,599
Source: Office of Justice Programs




       1
          Administrative Segregation is a non-punitive separation of offenders from the
general population for the purpose of maintaining the safety and security of offenders, staff,
and the institution.
       2
         TDCJ requested and was granted a non-monetary extension through 2007 so that
an evaluation of the program could be completed.



                                             - ii -
      We examined the TDCJ’s accounting records, financial and progress
reports, and operating policies and procedures and found the following:

  •   TDCJ spent $7,077 in indirect costs that were not authorized by OJP.

  •   Although the TDCJ provided us with documents in an attempt to
      support the statistics shown in the progress reports, the TDCJ did not
      maintain complete and organized supporting documentation for the
      performance measures included in progress reports.

  •   Two SVORI participants had documentation in their case files
      indicating that they were not eligible to participate in the SVORI
      program.

     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology are discussed in Appendix I.




                                     - iii -
-4-
